<html>
<title> - UNITED STATES POLICY TOWARD IRAQ</title>
<body><pre>[Senate Hearing 106-41]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 106-41
 
                    UNITED STATES POLICY TOWARD IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MARCH 9, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               ----------

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                      U.S. GOVERNMENT PRINTING OFFICE
56-320 cc                     WASHINGTON : 1999



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Jones, Hon. A. Elizabeth, Principal Assistant Secretary of State 
  for Near East Affairs..........................................     4
    Prepared statement of........................................     6

                                 (iii)

  


                    UNITED STATES POLICY TOWARD IRAQ

                              ----------                              


                         TUESDAY, MARCH 9, 1999

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                               South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee) presiding.
    Present: Senators Brownback and Ashcroft.
    Senator Brownback. I call the hearing to order.
    Ambassador Jones, welcome. We are delighted to have you 
back here to the committee hearing. We appreciate your ability 
to be able to make it in the snow. Hopefully, you can make it 
back, too.
    Ambassador Jones. Thank you. I hope so, too. Thank you very 
much, Mr. Chairman.
    Senator Brownback. We meet again to confront a rather 
perennial question any more, and that is what to do about 
Saddam Hussein. With your patience and indulgence, I would like 
to outline how I see the problem, and I have been working 
around this now for some period of time. It has been a problem 
that we just have not solved and it does not strike me that we 
are on a path to solving it now.
    Our problem is Saddam. In the last several months alone, he 
and his henchmen have disposed of a prominent Shiite cleric and 
his sons, they have eliminated some of the top ranks of the 
military, and have brutally suppressed dissension in the south 
of Iraq. Although these developments have been faithfully 
reported, the reaction of much of the international community 
has been that Saddam's brutality is a regrettable matter, but 
no real action has been taken.
    The second part of our trouble is what to do. There appears 
to be little disagreement that, once given the opportunity, 
Saddam will attempt to reconstitute his weapons of mass 
destruction and that that effort may take as little as 6 months 
for him to reconstitute these weapons.
    Despite this obvious fact, we have almost reached the end 
of the road in effective long-term monitoring and have almost 
certainly ended any phase that will permit intrusive challenge 
inspections. The United Nations Security Council is paralyzed 
by basic disagreements over how to proceed and the United 
States and Great Britain are waging a war of attrition against 
Saddam's air defenses which, while I hope it will help 
destabilize Saddam, that appears to be a very long-term 
project.
    Indeed, it has not been pointed out, but the only 
justification to this war of attrition is Saddam's own 
continued targeting of United States and British overflights. 
The moment he chooses to stop, which may well be the moment 
these bombings really hurt him, we too will be forced to end 
our attacks under the current strategy. I am concerned that we 
have not thought through what our actions will be when that 
does happen.
    Which brings me to my final point. I am very troubled that, 
despite the President's signature on the Iraq Liberation Act, 
little has been done to implement the act. Opposition groups 
have been designated because the law forced the President to do 
so by a date certain. A coordinator for the democratic 
transition in Iraq has been named, but he has been widely 
quoted in the Arab press saying that the premise of the Iraq 
Liberation Act will not work.
    The entire U.S. strategy seems to depend upon bombing and, 
while I support a vigorous and aggressive defense of the no-fly 
zones, I am concerned that I do not see more action on other 
fronts which could help bring us closer to the end of this 
bloody regime.
    We apparently are not going to get a successor to UNSCOM 
that can meet that Commission's high standards. We are not 
going to get agreement in the Security Council to further 
constrain Saddam in any way, as I read it, and I hope maybe you 
could show us a different interpretation.
    Unless we are resigned to the reconstitution of his regime 
of terror, Saddam is going to move ahead, fully armed with 
weapons of mass destruction. We really must do something. We 
must do so soon.
    My simple question to you is what is the Clinton 
administration's comprehensive plan for Iraq? What are we going 
to do? We are now in 1999. We have been at this for 9 years. 
There have been different strategies followed along the way. I 
was very hopeful earlier that we were moving toward a 
comprehensive plan and yet now it does not seem like we are on 
that track.
    So I look forward to your answering some of these questions 
and challenges in your testimony and some of the questions that 
we will have.
    Senator Ashcroft, thank you for joining us on this 
subcommittee. If you have an opening statement we would be 
pleased to hear it.
    Senator Ashcroft. Thank you, Mr. Chairman, for holding this 
hearing on United States policy toward Iraq.
    I am distressed by the resignation on the part of too many 
individuals that there is nothing that can be done to address 
this security threat and that we just have to take whatever 
happens to us. That is the absence of policy, not the presence 
of a coherent strategy to advance U.S. national security 
interests.
    The continuing exchanges of fire between United States 
warplanes and Iraqi air defense forces have made it clear that 
the threat posed by Saddam Hussein is not going to diminish 
unless aggressive action is taken to undermine his government. 
In that respect I agree with you wholeheartedly that he is the 
problem.
    Since December Iraq has violated the no-fly zones at least 
a hundred times. Its ground forces have fired 20 missiles at 
U.S. warplanes. Frankly, I commend the administration for 
keeping the pressure on Saddam over the last few months, but 
the outlines of a long-term policy to deal with the root of the 
problem, Saddam's continued rule, have not yet emerged.
    It is precisely the lack of a consistent strategy to 
encourage a change of government in Baghdad that has cost the 
United States so dearly in the Persian Gulf. Maintaining a U.S. 
force in the region to contain Saddam has cost us over $6 
billion in real dollars since 1993, with no end in sight. And 
because policies have not been followed to address the real 
threat, there is little prospect that the 20,000 troops we keep 
in the Persian Gulf will return home any time soon.
    Keeping our forces on the front lines in the Persian Gulf 
without focused and committed political leadership in 
Washington is a disservice to the soldiers and it undermines 
American credibility abroad.
    Over the last 6 years we have taken the path of least 
resistance in our policy toward Iraq. We supported the 
opposition until Saddam attacked them in 1996. We supported 
firm containment until advocates of appeasement at the United 
Nations opposed us in the Security Council. We condemned 
Saddam's brutal repression and used the strongest rhetoric 
against his weapons of mass destruction, but were more than 
happy to undermine our own diplomacy to accept new promises of 
compliance by Saddam last fall.
    It is astounding to me that, after more than a year of 
constant provocation from Saddam and in the midst of almost 
daily live fire exchanges between Iraqi forces and U.S. 
warplanes, the administration agreed in January to review 
sanctions on Iraq and also proposed lifting the caps on the oil 
for food program.
    If it were a real review of sanctions it might even be 
different, but ``reviewing sanctions'' for me is a code word 
for lifting or downgrading sanctions. I wonder if our review of 
sanctions would ever result in a strengthening of the sactions 
regime.
    These tactical retreats at critical junctures, coupled with 
a lack of a long-term policy to encourage a new government in 
Baghdad, are the reason that Saddam, I think, is stronger today 
than he was at the end of the Gulf war. I would be pleased to 
learn that he is not that strong.
    Aggressors around the world have taken note of our lack of 
resolve when it comes to Saddam Hussein. They have taken note 
that the administration has not spent a single dollar of the 
$97 million authorized by the Iraq Liberation Act to train and 
equip the Iraqi opposition. Supporting the Iraqi opposition 
certainly has risks, but the alternative is the resurgence of 
the most dangerous dictator in the Middle East and a severe 
blow to our credibility abroad.
    The administration has compared Saddam to Hitler, but U.S. 
policy made 1999 the year of Munich in the Persian Gulf. The 
President's policies are laying the basis for diminished U.S. 
credibility in the region and the rise of aggressive states 
hostile to U.S. interests and allies.
    The fact that the administration apparently has no 
immediate plans to equip or train Iraqi opposition forces does 
not lead me to believe that a genuine commitment to remove 
Saddam is present. I think we need a commitment to changing the 
leadership there.
    Merely deferring this crisis until the next administration 
while Saddam works to rebuild weapons of mass destruction and 
erode international sanctions, that is not the kind of foreign 
policy legacy that we need to leave to the American people.
    So I thank you for having this hearing Mr. Chairman. We 
need to try and find a way as a Nation to protect our interests 
far more aggressively and to deal with the root problem we have 
in Iraq.
    Senator Brownback. Thank you, Senator Ashcroft.
    Ambassador Jones, as you can tell, we have got some tough 
questions and we need some answers to them. I think the country 
needs some answers to these. I am very pleased you are going to 
join us today and I look forward to your testimony and to the 
question and answer exchange.
    Ambassador Jones.

   STATEMENT OF HON. A. ELIZABETH JONES, PRINCIPAL ASSISTANT 
            SECRETARY OF STATE FOR NEAR EAST AFFAIRS

    Ambassador Jones. Thank you, Mr. Chairman. I appreciate 
your questions as well as yours, Senator Ashcroft. I look 
forward to outlining the administration's policy. I think we 
have a very good, very coordinated, cohesive strategy for 
dealing with a very difficult problem, a very difficult 
situation, and one that is as of great concern to us as it is 
to you.
    I would like to go through where we are, I think, in Iraq, 
starting with the effort that was under way with Desert Fox in 
December to degrade Saddam Hussein's weapons of mass 
destruction and, more importantly, his delivery systems. That 
also had the effect of weakening his regime, which speaks in 
particular to both parts of our policy, both containment of 
Saddam Hussein and regime change.
    As you outlined, Mr. Chairman, a number of things have 
occurred which are indications of the extent to which the 
effort that is under way by the United States has succeeded in 
weakening Saddam Hussein's regime. In particular we noted this 
with his Army Day speech in which he called for the overthrow 
of Arab governments, which backfired very seriously against 
him. We saw it again when his foreign minister walked out of 
the Arab League meeting, demonstrating yet again to the Arab 
governments the weakness of Saddam Hussein's regime.
    He has repeated threats to Kuwait, Saudi Arabia, and 
Turkey, which just reconfirms them in their resolve to stand 
with us in confronting Saddam Hussein and his regime. And he 
has talked repeatedly again of the illegitimacy of the Kuwait 
border, which reconfirms the coalition in its stand with us 
starting with the Gulf war.
    We also have anecdotal information that we are getting from 
quite a number of the contacts that we have inside Iraq, those 
who report to us on what is happening inside. Ever since the 
December air strikes, the government offices in Baghdad have 
been dispersed; the government is unable to function with the 
efficiency that it has in the past. More importantly, the 
Republican Guard has been dispersed and is unable to take 
advantage of the relative comforts of Baghdad. They are out in 
the field, which is not something that they particularly look 
forward to.
    In particular, Saddam Hussein failed in his primary 
strategy through the fall, which was to get sanctions lifted 
and to gain control of the money from the sale of oil and from 
the lifting of sanctions. He has, more importantly, challenged 
us in the no-fly zones. The no-fly zones, as you know, were 
established some time ago through the Security Council in order 
to protect the people of Iraq from him, from the depredations 
of his regime, both in the south and in parts of the north.
    Although the air strikes that we undertake because of the 
challenges to our forces, to our pilots in the no-fly zones, 
are meant to protect the pilots and to protect our airplanes, 
they also have a collateral effect on the regime. The result of 
that in particular has been increasing reports of trouble in 
the south. There are some reports that ``Chemical Ali,'' the 
most infamous of Saddam's generals, may have been assassinated 
or there may have been an assassination attempt on him 
yesterday. We do not know the full story yet.
    There has been a considerable amount of unrest that 
resulted from the assassination of one of the senior Shia 
clerics, as you mentioned, Sadr, and his two sons. The unrest 
in the south was quelled in part by shelling in Nassiriyah. 
There were armed clashes in Karbala, and there is some 
discussion that there will be increased unrest in the south as 
the 40th day of mourning approaches for Sadr and his two sons. 
In addition, there are very credible reports that General 
Jenabi, the second in command in the south, was executed by the 
regime.
    The important thing, though, as you both mention, is what 
it is that we are doing to influence events in the south and 
what we are doing in order to fill out the administration's 
policy of containment and regime change. Frank Ricciardone, who 
has been named as the Special Coordinator for Transition in 
Iraq, was in London last week talking with many of the 
opposition groups, in particular those named, those designated 
for receipt of equipment under the ILA. He is working to try to 
put together an executive committee meeting of the leadership 
to try to get the Iraqi groups to work together in a way that 
is more credible, in a way that actually can affect a regime 
change.
    All of that needs U.S. support. It has U.S. support, and 
that is a very intensive effort that he has under way right 
now, and he will go back to that next week as well. Right now 
he is in Ankara talking with the Turkish Government and getting 
ready for the visit of Assistant Secretary Martin Indyk, who is 
due there in a couple of days to talk to the Turkish Government 
and to visit Incirlik to work even more intensively on 
Operation Northern Watch and to seek further Turkish support 
for our policies of containment and regime change.
    We are very pleased with Radio Free Iraq. More importantly, 
the Iraqis, the Iraqis on the ground, are pleased with the 
reporting that they are getting from Radio Free Iraq. There is 
other media outreach that we are working on. That is very 
important, we heard over and over again when we visited the 
north, in order to embolden people inside the country on the 
kinds of things that may be going on to effect regime change.
    On the ILA itself, as the act requires, we have designated 
seven groups that would be eligible to receive assistance under 
the act. We are working more intensively with those groups as 
well as others in order to ensure that we can use the act in an 
effective and appropriate way with them. We will of course look 
seriously at proposals that we get from them on how they may 
use equipment that might be provided to them under the act.
    In addition, we have quite a number of other tools that we 
very fortunately have been given by Congress to shore up the 
resistance inside Iraq and to broadcast within the 
international community more broadly the kinds of depredations 
that the Iraqi regime has perpetrated against its own people. 
We have been able to move about a half a million dollars to 
INDICT. They will start their very important work after 
considerable work with us to develop much more effective 
financial controls and programming ability in order to carry 
out their very important work.
    We are looking forward to funding Dr. Gosden very soon in 
field studies to followup on the work that she has already 
begun in Halabja following the chemical attacks on the Kurdish 
peoples in Halabja 10 years ago. We are hoping to work further 
on reconciliation of the Kurdish groups that I worked on when I 
was last in Iraq 6 weeks ago and as recently as yesterday and 
today in conversations with the Kurdish leaders. But, going 
beyond that, to try to use some of the money that we have been 
given through ESF for election training and election work 
inside northern Iraq to develop elections for the regional 
assembly.
    We have quite a number of other proposals that have been 
given to us that could be--that we could fund using the money 
that Congress has very kindly given us, and those we hope we 
will be able to fund very soon. One of the anomalies that we 
are finding is that we have a lot of new organizations, new 
NGO's, that are working inside Iraq, that would like to work 
inside Iraq or on Iraqi issues, that are not quite used to 
working with the U.S. Government and with U.S. Government 
money. So we have been finding ways to make sure that the money 
that we disburse to them is accounted for and used in a way 
that is appropriate and that Congress would support.
    I look forward to responding to your specific questions, 
and I know you have many. Thank you.
    [The prepared statement of Ambassador Jones follows:]
          Prepared Statement of Ambassador A. Elizabeth Jones
    Mr. Chairman: I appreciate this opportunity to update you on events 
inside Iraq and the steps the Administration is taking to try to 
influence them.
    We believe Operation ``Desert Fox'' accomplished its goal of 
degrading Saddam's capacity to develop and deliver weapons of mass 
destruction and his ability to threaten his neighbors.
    It also appears that the regime has been weakened.
    Saddam's January Army Day speech calling for the overthrow of Arab 
governments, the walk-out by his Foreign Minister from the January Arab 
League meeting, repeated Iraqi threats to Kuwait, Saudi Arabia and 
Turkey and repeated allusions by Iraqi officials to the illegitimacy of 
the Kuwait border underscore Saddam's weakness and isolation.
    Anecdotally, we have heard that over half the civilian government 
offices in Baghdad were dispersed to residential areas during the 
December air strikes and have not yet returned to their original 
locations. Moreover, long-term dispersal of Republican Guard units to 
the field is reported to be taking a toll on morale among the RG 
officer corps, which no longer enjoys a privileged lifestyle in 
Baghdad.
    Perhaps just as important, Saddam has been unable to achieve what 
he announced as his chief goal for 1998: the lifting of sanctions and 
restoration of his control over Iraq's billions of dollars in oil 
revenue. Instead, his defiance of the international community has 
prolonged sanctions even further and compelled the coalition to respond 
militarily in December. Sanctions remain in place. The UN controls his 
oil revenue and provides for the Iraqi people and it is clear that 
there can be no short cut to lifting sanctions.
    Since the end of Desert Fox, Saddam has chosen to challenge the No-
Fly zones in both the north and south on an almost daily basis. The 
coalition response has been to strike at his integrated air defense 
system. The net effect of his challenges has been to degrade his 
weapons capability further and frustrate his efforts to achieve even a 
pyrrhic victory.
    One recent strike appears to have affected communication for the 
oil pipeline to Turkey. Fortunately, repairs were made within 48 hours 
with no serious effect on oil flow essential to maintaining the 
humanitarian program. We will continue to make every effort to avoid 
hitting such dual-use targets.
    Internally, there have been signs of strain and unrest since Desert 
Fox. On February 19, Ayatollah Muhammed al-Sadr, the senior Shia cleric 
appointed by Saddam, was assassinated. Al-Sadr is the third senior 
cleric killed in less than a year. Over the past several months, he 
reportedly had been warned against leading Friday prayers and was 
interrogated and threatened by security forces. He was shot, along with 
his two sons, after attending Friday prayers at the shrine of the Imam 
Ali in Najaf. The Government refused to allow a funeral ceremony.
    Al-Sadr's assassination came at a time when Saddam appears to be 
having increasing difficulty maintaining control over security in 
southern Iraq. In an effort to repress unrest in the south, Saddam last 
fall named Ali Hasan al-Majid as Commander for the Southern Regions an 
appointment that probably was meant to intimidate the local population. 
Ali Hasan is known as ``Chemical Ali'' for his use of chemical weapons 
against Kurdish civilians when he was in charge of security in northern 
Iraq.
    Demonstrations erupted in several of Baghdad's predominantly Shia 
neighborhoods shortly after news of the killing got out. The regime 
moved quickly to quell the unrest. All roads leading into Baghdad were 
reportedly cut off and, according to opposition sources, 25 
demonstrators were killed, 50 injured, and 250 arrested, including 15 
religious scholars. Others reported even higher numbers.
    Similar, short-lived protests reportedly occurred in many other 
cities. The regime allegedly responded to demonstrators who occupied 
the town hall in Nassiriyah by shelling the town and killing 18 people. 
There were light arms clashes in Karbala. The opposition also reported 
that disturbances took place in areas with a large Sunni population. 
For example, in predominantly Sunni Ramadi province, nine people, 
including a former governor, were said to have been executed following 
unrest.
    The situation appears to have calmed for now. However, the 
traditional 40 days of mourning for the assassinated cleric will end in 
late March, near the Islamic Feast of the Sacrifice which marks the end 
of the Pilgrimage. We will be paying particular attention to popular 
demonstrations that might mark the end of the mourning period and to 
regime tactics either to forestall or quell them.
    In an incident that may have been unrelated to the popular unrest, 
the second in command in the southern Iraq security district and two 
staff officers reportedly were executed sometime in late January or 
February. Staff Lt. General Kamil Sachet al-Janabi, a former Corps 
commander, Gulf War hero and the senior deputy in the south to Ali 
Hassan al-Majid was accused of plotting to overthrow the regime. 
Whatever the real reason for his execution, the regime evidently 
intends it as a warning to others while at the same time alerting 
Iraqis to high-level fear of coups and overthrow.
    What is the U.S. doing to influence events?
    First, we continue to contain Saddam, working with the UN to 
reestablish disarmament and monitoring activities while at the same 
time ensuring that the basic needs of the Iraqi people are met. Second 
we are helping to isolate Saddam diplomatically, where the Arab world, 
in particular, is incensed by his behavior and threats. Third, we are 
working with Iraqis who want to see Iraq restored to its rightful place 
in the region, with Iraqis who, like us, believe such a future is 
possible only under a new regime.
    Frank Ricciardone, the new Special Coordinator for Transition in 
Iraq, took up his activities full-time on March 1. He was in London 
last week for another round of meetings with a wide range of Iraqis 
there. Among other influential Iraqis, he met with Ahmed Chalabi, 
chairman of the Executive Committee of the Iraqi National Congress. Dr. 
Chalabi, as you know, has called for a meeting of the INC this spring. 
We are working with him and other INC leaders to lay the groundwork for 
a successful meeting, through close consultation with constituent 
groups and careful planning. Ricciardone is encouraging the INC 
Executive Committee members to hold an informal meeting next week and 
to follow it with a formal meeting of the INC Executive Committee that 
could pave the way for a productive General Assembly meeting.
    This week, Assistant Secretary Martin Indyk will travel to Turkey, 
Jordan and Syria to continue our consultations with regional 
governments regarding our policy. After joining Martin in Ankara, 
Ricciardone, will stop again in London to continue his important 
consultations with key Iraqi exiles. As soon as he is back in 
Washington, he will resume his close consultations with members and 
staff regarding our shared goals and ways to work more closely together 
to achieve them.
    We are also very sensitive to the need to get information to and 
from Iraqis inside Iraq. We are pleased that Radio Free Iraq, which is 
an independent station, has been heard inside Iraq since October. We 
are also stepping up coordination with USIA, looking at ways to make 
other media outreach more effective.
    In early February, the President formally designated seven 
opposition groups under the Iraq Liberation Act as eligible to receive 
assistance under the Act. We are intensifying our contacts with Iraqi 
groups and will consider how we can help them more effectively oppose 
Saddam's rule and help Iraqis to achieve the kind of government they 
deserve and desire. We will evaluate carefully the capabilities of 
these groups, their strengths and their weaknesses, giving due 
consideration to any proposals they may wish to present regarding 
possible receipt of assistance under the Act. We will also try to 
resolve other practical issues, such as securing still more support 
from neighboring countries, as would be needed in such scenarios.
    We have also taken concrete steps to ensure that funding reaches 
groups and initiatives that meet our common goals. For example, we have 
worked over the past several months with the chairman and board of the 
INDICT organization to ensure that INDICT can become a major focal 
point of Iraqi war crimes accountability activity. The board has agreed 
to an initial grant of $500,000, and has welcomed our suggestion that 
funding be made available also for developing effective management and 
accounting expertise and for program development. We expect to receive 
a program plan and follow-on grant requests in the near future.
    We are also working with Dr. Christine Gosden to provide a grant 
for a field study of the effects of Saddam's 1988 attacks on the people 
of Halabja.
    As you know, I am personally involved in our efforts to help 
reconcile the Kurdish parties in northern Iraq. I traveled to the 
region in January to encourage them in their efforts to unify the 
regional government apparatus and to care more equitably for the needs 
of the people in the region. As part of this process, we are exploring 
ways for NGO's to provide election process training and assistance 
prior to elections in northern Iraq that could be held late this year.
    We are also looking at ways to provide assistance to:
          --leadership confidence building seminars and organizational 
        meetings;
          --Iraqis who will make their case before international 
        organizations such as UN agencies;
          --and seminars that explore ``the day after'' and such topics 
        as constitutional modeling, debt restructuring and rebuilding a 
        health care network.
    A more detailed report on this activity is in clearance. We look 
forward to working with Congress as we pursue these efforts at 
strengthening the ability of Iraqis to work for a better future.

    Senator Brownback. Thank you, Ambassador. I appreciate your 
testimony and I appreciate you coming here to testify.
    Let me just start. As I go through and look at this, of the 
$97 million that was authorized in drawdown for the Iraq 
Liberation Act, and I believe there was also appropriated an 
additional $13 million to support opposition to Saddam, you 
funded the Radio Free Iraq, that has been done; you have 
apparently here half a million that you are funding an initial 
grant to----
    Ambassador Jones. INDICT.
    Senator Brownback [continuing]. To INDICT. And that is what 
has been spent to date?
    Ambassador Jones. That is right.
    Senator Brownback. So a total of how much money has been 
spent that was authorized by the Congress to spend under the 
Iraq Liberation Act?
    Ambassador Jones. We have the money that has been 
transferred to INDICT, although that comes under the ESF rather 
than the Iraq Liberation Act. And we have spent money on the 
Halabja conference and November, which was about $67,000.
    Under the ILA itself, we want very much to disburse the 
equipment that is authorized under the ILA, but we believe we 
need to do it in a very responsible way, in ways that the 
groups themselves can use. We do not think that they are in a 
situation yet to receive that equipment until there is a 
greater coalition among them as to what they would do and how 
they would do it.
    Senator Brownback. So you have spent $67,000 and the Radio 
Free Iraq and to date that is the extent of what you have 
expended of what was authorized by the Congress?
    Ambassador Jones. That is right.
    Senator Brownback. You know, one of our concerns here is 
just that we need to move forward and we need to move forward 
aggressively, and that this has been signed into law for some 
period of time and you have been working with these groups for 
a period of time and it does not seem like much is happening, 
that it is just not moving forward.
    I have had a number of private meetings with you and with 
Martin Indyk and with Secretary Albright. It just does not seem 
like it is happening. I hope you have plans to move things 
forward more aggressively from this point on forward, unless 
you have a different strategy that you want to put forward than 
the Iraq Liberation Act implementation.
    Ambassador Jones. No, we do look forward to working very 
aggressively on this. As I say, the effort is very much under 
way to work with the specific groups to ensure that we can 
evaluate their abilities to work inside Iraq. The effort at the 
moment that is under way is to get together an executive 
committee meeting of the INC, the Iraqi National Congress, to 
work with them on how they might actually do this kind of thing 
inside Iraq.
    Senator Brownback. It is just my sense and a number of 
others that time is of the essence and we need to move forward 
quickly.
    I want to direct your attention, if I could, to some 
questions that I have had people ask me and I have not really 
been sure how to answer them. The President, when he signed the 
Iraq Liberation Act, stated the support for a new regime in 
Iraq. I think this was his actual quote. It is: ``to provide 
support to opposition groups from all sectors of the Iraq 
community that could lead to a popularly supported 
government.''
    I just want to know if that continues to be the case today, 
because I get different interpretations of what different 
administration officials are saying, that we are in a 
containment-plus strategy, we are in a containment plus removal 
strategy, and then some say, well, I am not sure that we are in 
for a regime change strategy.
    Now, is regime change a passive phrase? Do we mean that we 
just hope it is going to happen? Or is regime change something 
that the administration is working actively and aggressively to 
cause to happen?
    Ambassador Jones. It is--regime change is what the 
administration is working actively and aggressively to cause to 
happen. That is absolutely right. We have quite a number of 
tools that we are employing to do that. The ILA is one. The 
money that has been given to us under ESF is the other, using 
the kinds of NGO's, INDICT, et cetera, to do that.
    We think that there are quite a number of pieces that need 
to be pulled together in order to accomplish this. It is very 
important, however, in our view, that this be an Iraqi effort 
that we very much support. The administration does not feel 
comfortable, does not think it is appropriate, dictating to the 
Iraqi people what the regime change would be.
    That is the reason that we are working so intensively with 
the Iraqi exile groups. That is the reason that I am working on 
Kurdish reconciliation specifically, in order to help them come 
to agreement on what that regime change would be, in order to 
put meat on the bones of what we say when we talk about 
representative government, when we talk about an Iraq whose 
territorial integrity is maintained, whose sovereignty is 
maintained, and a government that would adhere to international 
norms.
    Senator Brownback. Well, I am glad to hear you say that it 
is an active phrase, because different of the Secretaries seem 
to have interpreted it somewhat differently or saying that the 
containment strategy and a removal strategy are inconsistent 
with each other when I think that they are perfectly consistent 
with each other. It is just it is going to take a great deal of 
push and effort to be able to get those done.
    Now, I asserted in my opening statement that the current 
United States and British bombing in the no-fly zones in Iraq 
constituted a legal response to Iraqi provocations. Would you 
agree with that statement?
    Ambassador Jones. That it constitutes a legal response to 
Iraqi provocations?
    Senator Brownback. A legal response.
    Ambassador Jones. Absolutely, yes.
    Senator Brownback. If that is the case, though, is it also 
not correct that if Iraq tomorrow stopped targeting allied 
planes and Saddam ceased all of his provocations that the 
bombing would by necessity end as well?
    Ambassador Jones. The mission that the United States 
military and the British military have been given is to patrol 
the no-fly zones, to protect the no-fly zones, and by extension 
therefore the Iraqi people in the south and the Iraqi people in 
the north as far down as the no-fly zone extends in the north. 
But the mission is focused on the no-fly zones.
    So if the challenges to the pilots were to cease, that 
would be the case, yes.
    Senator Brownback. Where would that leave U.S. policy, 
then? I mean, if that is one of the major ways that we continue 
to weaken Saddam Hussein, then we would be without that ability 
once he stops the provocations; is that correct?
    Ambassador Jones. No, I would disagree actually, Mr. 
Chairman, because all of the other policies that we have in 
place that we are working very intensively on are also directed 
at regime change. As you say, I completely agree with you that 
containment and regime change do work hand in hand.
    Containment is something that we are working on maintaining 
and shoring up in the Security Council and with our allies in 
the Gulf and in Turkey. Regime change goes beyond containment 
and it is what we are working on with the kinds of tools that 
we have been discussing already this afternoon.
    Senator Brownback. Let's talk about some of the tools for 
regime change, because clearly the Iraq Liberation Act is a 
regime change tool that the Congress has put forward.
    Ambassador Jones. That is right.
    Senator Brownback. And I believe we need to be more 
aggressive in moving forward with the implementation of that 
legislation, when you have only spent $67,000 plus Iraq Radio. 
We need to get more aggressive with that.
    What other policies does the administration have in place 
that are targeted at regime change?
    Ambassador Jones. The ILA, as you mention. The ESF that we 
have in the programs that we are working on in order to help 
the Iraqis, both the exile groups and those who may be inside, 
particularly in the north, first of all think about the kinds 
of things that they would like to see in a new government--so 
some of the money we hope to spend on day-after kinds of 
seminars to let Iraqis talk about and come to some conclusions 
about what we mean or what they mean by representative 
government.
    INDICT I think is a very important program in order to 
publicize for Iraqis and by Iraqis the human rights concerns 
and the war crime activities that Saddam Hussein and those 
close to him have undertaken.
    All of these, as well as the kinds of election training and 
development of systems inside northern Iraq for Kurdish 
reconciliation to occur along the lines that were agreed in the 
Washington Agreement, all of this we believe seriously 
emboldens those inside and the exile groups to think that 
regime change is a genuine possibility. The more that we can 
demonstrate to Saddam Hussein their coalition and their 
cohesiveness, the more people inside will believe that a new 
Iraq is possible for them in the near future.
    Senator Brownback. But none of those groups have the 
military capacity to do anything against Saddam, do they?
    Ambassador Jones. Certainly inside they do. We believe they 
do, absolutely.
    Senator Brownback. That would have enough military capacity 
to be able to challenge Saddam?
    Ambassador Jones. They could, they could. However, there 
are other ways that we can work on to assist them in that, but 
that is probably not something that we can talk about in this 
forum.
    Senator Brownback. I would like to pursue that with you 
further, because what I am hearing you say are all good and 
laudable things, but it does not strike me that any of them can 
set any date, that we could project any date forward that this 
regime would be out of power; that these are things that are 
laudable to do, but we could not say that we would project 
within 2 years, within 1 year, within 5 years, there will be a 
new regime that heads the Government of Iraq. Can we?
    Ambassador Jones. I would not--I would not want to give you 
a date, no. But at the same time, I think it is very, very 
possible that we can build the kind of, as I said, cohesiveness 
and common sense of purpose among the Iraqi opposition groups, 
the Iraqi exile groups, that we are working on now.
    One of the difficulties that we have been facing is a very 
disparate set of groups, whose differences have been more--have 
been more of a subject than their agreements. It is the 
agreement among them that we are trying to foster. I think that 
is the most important, the most important political aspect of 
this that we can work on.
    Once the political aspect of this is more apparent and is 
more agreed, that makes it much easier for us to use the ILA as 
the Congress intended and as we intend to implement it.
    Senator Brownback. The military bombing that we are doing, 
the targeting of the bombing is mostly targeted toward sites 
that fix on our aircraft. There has been some writers that have 
suggested that we would be better off to respond to more 
sensitive targets, that our attacks should help facilitate 
Saddam's overthrow with our targets on our bombing responses 
when they target us.
    How would you respond to that? Do you think that would be a 
better way for us to target some of our bombings in Iraq?
    Ambassador Jones. For now the mission, as I said, is to 
maintain the no-fly zones and to protect the pilots who are 
challenged as they undertake this mission. The rules of 
engagement are defined as allowing the pilots to go after any 
of the air defense systems in Iraq that might, that might harm 
or put any of our pilots or planes at risk.
    The principals, the administration, has decided to maintain 
the mission at that level at this point.
    Senator Brownback. Why not add additional potential targets 
as those that are politically sensitive targets as well? If our 
effort is not only containment of this regime, it is also 
removal of this regime, why not use probably the greatest force 
capacity that we have, rather than the $97 million that 
Congress has appropriated for the Iraq Liberation Act to work 
with outside groups or Iraq Radio? Why not use this military 
force that is in place, that is authorized, that is capable of 
attacking these politically sensitive targets, that would lead 
more to the potential overthrow of Saddam?
    It seems we are wasting a tremendous opportunity here.
    Ambassador Jones. I think probably my colleagues at the 
Pentagon are better placed to answer that question, but maybe I 
can put it in a broader regional and political context as well 
for now.
    We are working very hard to maintain several sets of 
coalitions, several coalitions. One I would describe as being 
the consensus and coalition in the Security Council that we 
need in order to maintain the sanctions on Iraq, which we 
consider to be very important.
    The other is to maintain the coalition in the Gulf and the 
agreements with Turkey that permit us to fly from bases in 
those countries and permit us to fly to protect the no-fly 
zones.
    There is also what we call the MIF in the Gulf that is 
another coalition. Our goal at this point is to maintain all of 
those coalitions in a way that allows us to continue our policy 
of containment and to go beyond that to the policy of regime 
change.
    Senator Brownback. Well, I have traveled in the region late 
last year and met with a number of leaders of adjacent 
countries. What they sought more than anything was a 
comprehensive U.S. strategy that would lead to the removal of 
Saddam Hussein, and not just the potential of his removal or 
kind of trying to set the circumstances and hope that the 
removal occurs, but the actual removal of Saddam Hussein from 
power.
    They support a regime change. You noted, I thought well, in 
your testimony that he made a mistake by calling for regime 
change in a number of his neighbors, and now they are back and 
saying, well, we think you ought to go. So that their back is 
up.
    But pardon me, but our strategy in place now, we cannot 
project any time certain, nor can we convey to any of our 
allies in the region, any sort of certainty at what point in 
time Saddam Hussein will not be in power, nor any period of 
time that he may not be in power, unless maybe a lucky bomb 
gets him or he eats too much fat, I guess, and has heart 
problems.
    But we just do not have those things in place. And yet we 
have the opportunity through our military that is there in the 
region, through allies that want to support us, to remove him. 
It seems to me that we are hesitating and stopping and doing 
things that are on the periphery, but will not end up removing 
Saddam Hussein in and of their own force even if they are 
gotten up to full speed.
    These efforts that you have talked about, even if you got 
them up to full speed, will not lead to the removal of Saddam 
Hussein. They seem to be more of a containment strategy than a 
removal strategy.
    Ambassador Jones. Well, the decision that has been taken by 
the administration is that the way to go about regime change as 
aggressively as we possibly can is to do it through the tools 
that have been given us, the ILA, through ESF, through using 
and shoring up and persuading and convincing Iraqi groups, 
Iraqi exile groups and Iraqis inside the country, to work for 
it in the form that they decide for themselves.
    Senator Brownback. I think what it needs is it needs 
aggressive U.S. leadership, with a comprehensive plan, and that 
we target politically sensitive areas. There have been other 
experts that have suggested establishing areas within the 
country where dissident groups could develop and work, that we 
would provide an overflight protection to them.
    I have seen several different plans that are of a much more 
aggressive nature in dealing with this situation. It looks like 
what we have got in place today, it may take several years, it 
may take 10 years. We will wait him out, is kind of the 
strategy today.
    I do not know that the coalition will hold that long. I do 
not know that the Arab countries will wait in the region. I do 
not know that the United Nations Security Council will wait, 
will keep the sanctions on that period of time.
    We have really got a moment now where he is weaker, where 
there is internal dissent starting up, where you have the 
neighboring countries willing to help remove this regime, and 
we are kind of standing back saying, well, let us see if 
something comes forward out of this stew, but not with any sort 
of comprehensive leadership on the behalf of the United States.
    I know it is a complicated situation, but we are not 
putting forward comprehensive leadership in this region at a 
time when perhaps just some could really move us aggressively 
forward on the removal of this regime.
    Ambassador Jones. Well, I actually believe that we are very 
well placed. We are being very aggressive on the political 
side. We are in very close touch with our colleagues in the 
Gulf and in Turkey. They tell us that they are completely with 
us in the way that this is being pursued.
    I cannot tell you--you are right, I cannot tell you by what 
date a change may take place. But we are very encouraged and 
more encouraged almost every day by the kind of effect that we 
see that our actions, the actions of U.S. forces and U.S. 
political efforts, the effect that they are having inside the 
country.
    Senator Brownback. Do you think the regime change will 
happen during this administration?
    Ambassador Jones. I think it is entirely possible, yes. I 
hear this--like I say, I hear it myself from my conversations 
with people in the north that I have had just in the last 
couple of days.
    Senator Brownback. So patience is the watchword?
    Ambassador Jones. No, not patience. It is a tremendous 
amount of talking, cajoling, meetings, traveling around to make 
sure we get the right people in the meetings, bringing Iraqis 
together who have not talked to each other for quite a long 
time, bringing Iraqis together who have not worked together, 
creating a genuine coalition among the Iraqis, who do not 
naturally necessarily come together.
    We think it is very important, as probably is evident from 
the groups that we designated in the ILA, for there to be a 
very broad group of Iraqis, Iraqis in exile and Iraqis inside 
the country, to work together so that we do not influence 
events in Iraq in a skewed fashion. We think it is very 
important for the Kurds to participate, for the Shia to 
participate, for Sunni groups to participate, for tribal 
organizations to participate, Turkomen, Assyrians. Any of the 
groups that one can imagine we are reaching out to to really 
work extremely hard on them, really put a strong-arm on them, 
if you will, to get them to work together and to come together 
in discussions to really come up with a very clear sense of 
purpose and a very steadfast focus on what is most important, 
which is regime change, rather than on some of the--on some of 
the past that has gotten in their way up until now.
    Senator Brownback. Well, you are a very able witness on 
behalf of the administration. I just note some skepticism from 
here in the Congress on whether we have a comprehensive, 
aggressive plan and whether that is being implemented and 
whether the Iraq Liberation Act is being implemented at all or 
it is just being kind of a slow roll.
    I note that it has been reported in several newspapers that 
Mr. Ken Pollack, that the NSC intended to take on him as their 
new Iraq specialist, who he has stated very openly in Foreign 
Affairs magazine his questioning of the Iraq Liberation Act and 
whether or not that is a plan that will work.
    The Congress put that plan forward thinking that it could 
work. It passed, it was signed by the President. There may be 
people that dispute it, but it is put into place, and a number 
of us do not feel like it is being implemented with the 
aggressiveness, given the opportunity that is present today.
    I suppose if one could say, well, we are not getting 
anywhere at all, we do not have any opportunities in dealing 
with Saddam, let us just let it ride. But there are real 
opportunities that are there, and I do hope the administration 
takes your words to heart about aggressively working with those 
groups to get them in place.
    I would also urge you to use the other available tools that 
are available to you, militarily and other tools, in a 
comprehensive plan, sell that to the region, I mean presenting 
it to the region, which I hope Assistant Secretary Indyk is 
doing this week and next week, because that is what they want 
to see from the United States. That is what they are willing to 
support.
    It is not without a lot of difficulties, and you have got 
to balance on many hands. But we have done it before. We 
probably will not get this lineup the way we have got it right 
now again any time soon.
    So I do hope you will work on that aggressively.
    Ambassador Jones. Absolutely. I appreciate your comments, 
Mr. Chairman, and we are working on it very hard.
    Senator Brownback. We will continue to have discussions 
with you and continue to watch this issue. If you have other 
comments that you want to put into the record, we will be happy 
to receive those over the next several days as per the 
committee rules.
    Ambassador Jones. Thank you.
    Senator Brownback. We will keep the record open for 5 days 
after this if you care to have other things inserted into the 
record.
    Thank you for your very good job, and I hope we can work 
together. We really have to get this dangerous man out of 
power.
    Ambassador Jones. We completely agree. Thank you very much, 
Mr. Chairman.
    Senator Brownback. The subcommittee is adjourned.
    [Whereupon, at 2:48 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
